                                United States Department of Agriculture
                                         Office of Inspector General
                                          Washington, D.C. 20250



DATE:             April 7, 2011

AUDIT
NUMBER:           33601-12-Ch (1)

TO:               Dr. Gregory Parham
                  Administrator
                  Animal and Plant Health Inspection Service

ATTN:             Joanne L. Munno
                  Deputy Administrator
                  Marketing and Regulatory Programs Business Services

FROM              Gil H. Harden /s/ Tracy LaPoint (for)
                  Assistant Inspector General
                   for Audit

SUBJECT:          APHIS Needs to Establish Better Controls Over Information Systems

This is a synopsis of a Fast Report on the subject that we issued to the agency. Due to the
sensitive nature of the information disclosed in that Fast Report, we are unable to provide
public access or post the full version on the internet.

During audit fieldwork, we determined that the Animal and Plant Health Inspection Service
(APHIS) implemented a database system in 2006 without ensuring that Federal information
systems security requirements were met. Specifically, we found that APHIS’ Information
Technology Division (ITD) was not aware that another APHIS division implemented the
database and could not ensure it met the Federal information systems security requirements for
certification and accreditation (C&A).1,2 The database system contains sensitive and Personally
Identifiable Information, as well as information obtained from other agencies and departments.

In response to our Fast Report, dated April 14, 2011, APHIS ITD officials stated they had
already notified the Department of Agriculture’s Office of the Chief Information Officer (OCIO)
regarding the existence of the database system, and would work with the OCIO to complete the
C&A process. APHIS also agreed to review all APHIS servers, using network scanning tools
available, to develop a complete inventory of systems and identify any unauthorized systems, by

1
  Federal Information Processing Standards Publication 200, Minimum Security Requirements for Federal
Information and Information Systems, dated March 2006.
2
  Certification is a comprehensive assessment of a system’s security features and safeguards to establish whether it
meets specified security requirements, and accreditation is the formal declaration by a designated accrediting
authority that the system is approved to operate using a prescribed set of safeguards, Departmental Manual 3555-
001, dated October 18, 2005.
Dr. Gregory Parham                                                                          2


April 30, 2011. APHIS’ ITD will also direct the program units to report all servers and systems
that have not been previously identified, by June 30, 2011.

This issue, along with any others identified, will be compiled into a final report at the
conclusion of our audit.
